                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0070059                                                                        Page 1 of 1



                  We reviewed an allegation of plagiarism in an SBIR proposal 1 and found a small amount of
          copied text. After opening this case, we realized that there was also a Civil/Criminal case involving
          the company2. Due to the egregious allegations in the Civil/Criminal case and the very small amount
          of copied text in this proposal, we decided to close this case.

                    Accordingly, this case is closed.




NSF OIG Form 2 (11102)
